<html>
<title> - SPURRING ECONOMIC GROWTH AND COMPETITIVENESS THROUGH NASA-DERIVED TECHNOLOGIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                      SPURRING ECONOMIC GROWTH AND
                        COMPETITIVENESS THROUGH
                       NASA-DERIVED TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, JULY 12, 2012

                               __________

                           Serial No. 112-95

                               __________

 Printed for the use of the Committee on Science, Space, and Technology






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-391 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          JERRY F. COSTELLO, Illinois
    Wisconsin                        TERRI A. SEWELL, Alabama
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             HANSEN CLARKE, Michigan
W. TODD AKIN, Missouri                   
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                 EDDIE BERNICE JOHNSON, Texas
E. SCOTT RIGELL, Virginia
MO BROOKS, Alabama
RALPH M. HALL, Texas
















                            C O N T E N T S

                        Thursday, July 12, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    10

Statement by Representative Jerry F. Costello, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    11

                               Witnesses:

Dr. Mason Peck, Chief Technologist, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    12
    Written Statement............................................    15

Mr. George Beck, Chief Clinical and Technology Officer, Impact 
  Instrumentation, Inc.
    Oral Statement...............................................    24
    Written Statement............................................    30

Mr. Brian Russell, Chief Executive Officer, Zephyr Technology
    Oral Statement...............................................    28
    Written Statement............................................    30

Mr. John Vilja, Vice President for Strategy, Innovation and 
  Growth, Pratt & Whitney Rocketdyne
    Oral Statement...............................................    33
    Written Statement............................................    36

Dr. Richard Aubrecht, Vice President, Moog Inc.
    Oral Statement...............................................    45
    Written Statement............................................    48

Discussion                                                           11

  ...............................................................      

             Appendix 1: Answers to Post-Hearing Questions

Dr. Mason Peck, Chief Technologist, National Aeronautics and 
  Space Administration...........................................    68

Mr. George Beck, Chief Clinical and Technology Officer, Impact 
  Instrumentation, Inc...........................................    73

Mr. Brian Russell, Chief Executive Officer, Zephyr Technology....    76

Mr. John Vilja, Vice President for Strategy, Innovation and 
  Growth, Pratt & Whitney Rocketdyne.............................    78

Dr. Richard Aubrecht, Vice President, Moog Inc...................    86

 
                      SPURRING ECONOMIC GROWTH AND
                        COMPETITIVENESS THROUGH
                       NASA-DERIVED TECHNOLOGIES

                              ----------                              


                        THURSDAY, JULY 12, 2012

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning. Welcome to today's hearing entitled 
``Spurring Economic Growth and Competitiveness through NASA-
Derived Technologies.'' In front of you are packets containing 
the written testimony, biographies and Truth in Testimony 
disclosures for today's witness panel. I recognize myself for 
five minutes for an opening statement.
    I would like to begin by thanking our witnesses for taking 
time from their busy schedules to appear before us this morning 
and share their insight about the role NASA has played in 
spurring technologies that yield economic growth and keep 
America at the forefront of global technological 
competitiveness. I realize you and your staff devoted 
considerable time and effort preparing for this hearing, and I 
want you to know that your expertise will help inform this 
Committee and Congress during the coming months and years.
    In the public media, discussions of NASA's general 
contributions to society are often distilled down to Tang and 
Teflon. Yet NASA-derived technologies have paved the way for 
innovative advances in the medical field, environmental 
stewardship and public safety. Today's hearing will only skim 
the surface in highlighting the direct economic and societal 
benefits investment in NASA has generated.
    Since 1976, NASA has documented well over 1,700 successful 
examples of technology transfer and commercialization. But 
despite decades of demonstrated success, NASA's budget has 
remained essentially flat even as other R&D agencies are seeing 
increases. Investment in NASA's technology transfer activities, 
however, has seen a drastic decline in recent years.
    A recent NASA Inspector General audit on NASA's technology 
and commercialization efforts concluded that NASA has missed 
opportunities to transfer technologies and that industry and 
the public have not fully benefited from the NASA-developed 
technologies. The IG found a general lack of awareness among 
NASA program managers about the technology transfer and 
commercialization process and that many personnel did not 
understand the range of technologies that could be considered 
as technological assets. Furthermore, the report found that the 
number of patent attorneys and dedicated Innovative Partnership 
Office staff and related funding was insufficient given the 
technology transfer and commercialization potential. The IG 
recommended NASA implement a review of the policy process and 
implement new procedures and training requirements to ensure 
NASA personnel were fully aware of the process and their 
responsibilities. The IG also recommended that NASA reassess 
the allocation of resources for technology transfer. This 
Committee will follow closely NASA's implementation of these 
recommendations.
    The IG report took a look at formal NASA processes in 
place, but it begs the question: does technology transfer 
happen in other, informal ways? And if so, how can NASA best 
marry entrepreneurs with the technologies it has already 
developed or those that it may still need for future missions? 
Exploring both traditional and nontraditional means for 
technology transfer to the private sector is equally important 
if we hope to leverage space technology development as an 
engine for economic growth and U.S. competitiveness.
    Today's hearing will explore positive examples of 
partnerships between NASA and the private sector yielding 
American-made technologies beneficial to both NASA's space 
exploration mission and to society as a whole. We will also 
examine what strategies and programs NASA uses to disseminate 
technology into the private sector and identify the greatest 
challenges the private sector has in working with NASA to more 
quickly transition ideas into new products.
    I look forward to today's discussion, and wish to again 
thank our witnesses for their presence.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo
    I would like to begin by thanking our witnesses for taking time 
from their busy schedules to appear before us this morning and share 
their insight about the role NASA has played in spurring technologies 
that yield economic growth and keep America at the forefront of global 
technological competitiveness. I realize you and your staff devoted 
considerable time and effort preparing for this hearing, and I want you 
to know that your expertise will help inform this Committee and 
Congress during the coming months and years.
    In the public media, discussions of NASA's general contributions to 
society are often distilled down to Tang and Teflon. Yet, NASA-derived 
technologies have paved the way for innovative advances in the medical 
field, environmental stewardship, and public safety. Today's hearing 
will only skim the surface in highlighting the direct economic and 
societal benefits investment in NASA has generated. Since 1976, NASA 
has documented well over 1,700 successful examples of technology 
transfer and commercialization. But despite decades of demonstrated 
success, NASA's budget has remained essentially flat even as other R&D 
agencies are seeing increases. Investment in NASA's technology transfer 
activities, however, has seen a drastic decline in recent years.
    A recent NASA Inspector General audit on NASA's technology and 
commercialization efforts concluded that NASA has missed opportunities 
to transfer technologies and that industry and the public have not 
fully benefited from NASA-developed technologies. The IG found a 
general lack of awareness among NASA program managers about the 
technology transfer and commercialization process and that many 
personnel did not understand the range of technologies that could be 
considered as technological assets. Furthermore, the report found that 
the number of patent attorneys and dedicated Innovative Partnership 
Office staff--and related funding--was insufficient given the 
technology transfer and commercialzation potential. The IG recommended 
NASA implement a review of the policy process and implement new 
procedures and training requirements to ensure NASA personnel were 
fully aware of the process and their responsibilities. The IG also 
recommended that NASA reassess the allocation of resources for 
technology transfer. This Committee will follow closely NASA's 
implementation of these recommendations.
    The IG report took a look at formal NASA processes in place, but it 
begs the question--does technology transfer happen in other, informal 
ways? And if so, how can NASA best marry entrepreneurs with the 
technologies it has already developed or those it may still need for 
future missions? Exploring both traditional and nontraditional means 
for technology transfer to the private sector is equally important if 
we hope to leverage space technology development as an engine for 
economic growth and U.S. competitiveness.
    Today's hearing will explore positive examples of partnerships 
between NASA and the private sector yielding American-made technologies 
beneficial to both NASA's space exploration mission and to society as a 
whole. We will also examine what strategies and programs NASA uses to 
disseminate technology into the private sector and identify the 
greatest challenges the private sector has in working with NASA to more 
quickly transition ideas into new products.
    I look forward to today's discussion, and wish to again thank our 
witnesses for their presence.

    Chairman Palazzo. I now recognize Mr. Costello for an 
opening statement.
    Mr. Costello. Mr. Chairman, thank you, and thank you for 
calling the hearing today. I have a brief opening statement 
which I will enter into the record so that we can hear from the 
witnesses.
    Thank you.
    [The prepared statement of Mr. Costello follows:]

    Good morning and thank you Mr. Chairman, for calling this important 
hearing on NASA spinoffs.
    NASA technologies produce direct economic and societal benefits for 
all Americans. Since the agency was established in 1958, technical 
challenges of NASA's space exploration, space science, and aeronautics 
missions have led to technological advances, unique skills, and 
scientific knowledge that have contributed to America's capacity for 
innovation and global competitiveness.
    Mr. Chairman, this hearing serves as an opportunity to educate the 
public on the connection between the federal government's investments 
in space and the benefits to society. These contributions developed 
important products, such as satellite radio, medical diagnostics and 
aeronautical advances that have improved the safety, and fuel-
efficiency performance of both commercial and military aircraft.
    In carrying out its missions and developing these technologies, 
NASA also has inspired young people to enter educational and career 
paths in science, technology, engineering, and mathematics.
    I look forward to hearing from the witnesses on what steps can be 
taken to enhance NASA's technology transfer and commercialization 
processes, how to increase the impacts of NASA-applied technologies to 
the economy and society at large, and ways to improve NASA's 
communication to the public to ensure the societal benefits of its 
technology and R&D are better understood and appreciated.

    Chairman Palazzo. Thank you, Mr. Costello.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel of 
witnesses and we will proceed to hear from each of them in 
order.
    Our first witness is Dr. Mason Peck. Dr. Peck is Chief 
Technology Officer for the National Aeronautics and Space 
Administration, where he serves as the agency's principal 
advisor and advocate on matters concerning technology policy 
and programs. Prior to joining NASA, Dr. Peck was Associate 
Professor in the School of Mechanical and Aerospace Engineering 
at Cornell for eight years. He earned his Ph.D. in aerospace 
engineering at the University of California at Los Angeles. Dr. 
Peck has a broad background in aerospace technology, which 
comes from nearly 20 years in industry and academia.
    Our next witness is Mr. George Beck, Chief Clinical and 
Technology Officer for Impact Instrumentation Incorporated, 
where he is responsible for the conceptualization and 
development of new critical-care medical devices. He previously 
worked for Wyle Laboratories at the Johnson Space Center, where 
he led a team of scientists and engineers on work to develop a 
new generation of medical equipment for use on the 
International Space Station and space shuttle.
    At this time I would like to yield to the gentlewoman from 
Maryland, Ms. Edwards, who will introduce our next witness.
    Ms. Edwards. Thank you very much, Mr. Chairman and to our 
Ranking Member. It is a really great privilege to be able to 
introduce Brian Russell, who is the CEO and founder of Zephyr 
Technology in Annapolis, Maryland, and just to give you a 
little bit of background, Mr. Russell received his bachelor's 
of engineering degree from Auckland University in New Zealand 
is a subject-matter expert in analog and electronics 
communications and physiology. He holds three patents and 
several more provisional applications in the area of 
physiological sensing using smart fabric sensors. Zephyr 
Technology is headquartered in Annapolis, has investors like 
Motorola, 3M, and investors that understand government and 
business, and employs 35 people at Zephyr and is a global 
leader in the art and science of remote physiological status 
monitoring, or PSM. I am delighted to be able to welcome Brian 
Russell to the Committee today, and know that we are proud, as 
all of our states are, in Maryland the kind of relationship 
that has developed between the private sector and the public 
sector and the innovation and technology exhibited by Mr. 
Russell and by Zephyr Technology and welcome his testimony 
today.
    Thank you, Mr. Chairman.
    Chairman Palazzo. Thank you, Ms. Edwards.
    Our next witness is Mr. John Vilja, Vice President for 
Strategy, Innovation and Growth at Pratt and Whitney 
Rocketdyne. Mr. Vilja has enjoyed a 28-year career with 
Rocketdyne and was most recently the Vice President and Program 
Manager for the J-2X Earth Departure Stage Engine Program for 
NASA's Space Launch System. He earned his bachelor's degree in 
mechanical engineering from California State University-
Northridge and an M.B.A. degree from the Anderson Graduate 
School of Management at the University of California in Los 
Angeles.
    Our final witness is Mr. Richard Aubrecht, Vice President 
of Moog Incorporated. Dr. Aubrecht has spent the bulk of his 
40-year career at Moog after having earned his B.S., M.S. and 
doctorate degrees in mechanical engineering from Cornell 
University.
    Welcome to you all. As our witnesses should know, spoken 
testimony is limited to five minutes each. After all witnesses 
have spoken, Members of Committee will have five minutes each 
to ask questions.
    I now recognize as our first witness, Dr. Mason Peck, for 
five minutes to present his testimony.

                  STATEMENT OF DR. MASON PECK,

                      CHIEF TECHNOLOGIST,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Peck. Chairman Palazzo, Ranking Member Costello and 
Members of the Committee, thank you for the opportunity to 
testify on NASA's technology transfer and commercialization 
efforts and how investments in cutting-edge research and 
development efforts such as those seen through space 
exploration can benefit the entire Nation.
    On a personal note, I am honored to be serving as NASA's 
Chief Technologist. As the NASA Administrator's top advisor on 
technology, I am responsible for a number of things, and that 
is guiding strategic agency investments in technology, 
facilitating technology transfer, partnerships in 
commercialization activities across the agency, advocating 
externally on behalf of NASA's R&D programs, demonstrating and 
communicating societal impacts of NASA technology investments, 
and overseeing executive management of NASA'S Space Technology 
Program.
    As we seek to achieve our national objectives in human 
space, exploration, aeronautics and scientific discovery, we 
share with the public the technical advancements we make so 
that our Nation may benefit from these new ideas in other areas 
such as efficiencies in manufacturing, advanced medical 
procedures and protocols, increased agricultural yields and 
cleaner, safer transportation.
    NASA's innovations also stimulate the growth of our 
innovation economy. Knowledge provided by weather and 
navigational spacecraft, efficiency improvements in both ground 
and air transportation, supercomputers, solar- and wind-
generated energy, improved biomedical applications including 
advanced medical imaging as well as the protective gear that 
keeps our military, firefighters and police safe, all of these 
have benefited from our Nation's investments in aerospace 
technology.
    NASA provides America with unique capabilities because we 
take on extraordinarily difficult problems in technology and 
science. By taking humans to inhospitable places, we learn key 
survival skills, and about keeping people healthy when the 
nearest hospital is days away. This translates into benefits 
like the advanced ultrasound devices created in partnership 
with NASA: Henry Ford Hospital in Detroit and the company 
Epiphan in Springfield, New Jersey. Using a portable ultrasound 
machine, a non-physician can, with minimal technical know-how, 
send medical imaging from remote locations for consultation 
with experts. This device is now employed by emergency medical 
personnel around the country, as well as by coaches and sports 
teams. This is one of hundreds of examples of how solving 
technical problems in aerospace also leads us to invent 
technologies that make life better right here on Earth. It is a 
single example but it is one of nearly 2,000 that NASA has 
collected in its annual spin-off publication and I will be glad 
to provide examples of that publication to you.
    I have also brought with me a couple of other examples of 
very compelling spin-offs--we have got them right here--
products derived from NASA technology. So first let me point 
out this. It is called the Rescue Pod. It increases blood flow 
to the brain and heart during CPR. It doubles systolic blood 
pressure and increases survivability. It is used by our armed 
forces overseas and our EMS units around the country. It was 
designed as an emergency contingency device to regular blood 
flow of astronauts transitioning from the reduced gravity 
environment of space back to earth's gravity but now it saves 
lives and it came from space.
    I have to talk about Micro-Bac, and there is a couple 
samples here of sand. Both of them were taken from the Gulf 
shores are the Deepwater Horizon oil-rig spill. One was treated 
with a solution developed by NASA through our SBIR program. 
That's the Small Business Innovation Research Program. Marshall 
Space Flight center in Alabama and Micro-Bac International of 
Round Rock, Texas, developed a phototropic cell for water 
purification in space. Inside the cell are millions of 
photosynthetic bacteria. That formulation is now used for the 
remediation of wastewater systems and waste from livestock 
farms and food manufacturers but strains of that same SBIR-
derived bacteria also feature microbial solutions that treat 
environmentally damaging oil spills from the dirty sands right 
here to the clean sand that I have got in front of me.
    And then my cell phone. Most of us have one of these. I am 
holding up a standard smartphone here, and I am not about to 
tell you that NASA invented the cell phone but NASA did bring 
you the cell phone camera right in there. One of our inventors, 
Eric Fossum out of the Jet Propulsion Lab in California, 
designed and developed that CMOS camera on a chip that drove 
the prices of digital imaging sensors low enough that modern 
cell phones now have camera-quality capabilities. It is a 
particularly striking example because NASA technology finds its 
way into our pockets.
    So NASA technology is all around us. It is making our lives 
better, and we have hundreds of these stories to share. We do 
this through our annual spin-off publication. It is a 
longstanding NASA tradition where the agency publishes a report 
on some of these annual technology successes.
    Let me move on to talk about NASA's commitment to tech 
transfer. We have added technology transfer to the top-level 
agency-wide performance goals that are reported annually to the 
Office of Management and Budget. We do have room for 
improvement, though. You mentioned the IG report. They 
concluded that we lack--or NASA personnel lack awareness of the 
agency's technology transfer policy requirements; assets aren't 
consistently identified or fully understood; innovators lack 
awareness of new technology reporting processes, and new 
reports are inaccessible. NASA agrees with these findings and 
we are taking advantage of that report to make improvements in 
the program. I have got a number of things I can offer here but 
my time is about up.
    So in closing, let me offer you a couple of final thoughts. 
We are discussing today NASA's considerable success in tech 
transfer and commercialization but we have to remember that 
these great spin-offs rely on NASA having an ongoing, robust 
investment in research and technology. If we don't create new 
technologies, we will have no new transformational 
capabilities, new industries, new economic growth and jobs or 
tech transfer as a result of all those. This is why continued 
investment by America in research and technology programs such 
as NASA's Space Technology Program is essential.
    Mr. Chairman, thank you for your support and that of the 
Committee. I would be pleased to respond to any questions you 
or the other Committee Members may have.
    [The prepared statement of Dr. Peck follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Thank you, Dr. Peck.
    I now recognize our next witness, Mr. George Beck, for five 
minutes to present his testimony.

                 STATEMENT OF MR. GEORGE BECK,

             CHIEF CLINICAL AND TECHNOLOGY OFFICER,

                  IMPACT INSTRUMENTATION, INC.

    Mr. Beck. Thank you, Mr. Chairman. Thank you for the 
opportunity to speak on behalf of the owners of Impact 
Instrumentation and the employees. We are a small business in 
New Jersey, and this is a unique opportunity for all of us.
    Our relationship with NASA has not been a traditional spin-
off. It has actually been more of a spin-in. Impact 
Instrumentation has developed and manufactured life-support 
equipment used by the Department of Defense and other 
government organizations as well as civilian care providers for 
the last 35 years.
    While I was a member of Wyle Laboratories at the Johnson 
Space Center, our group modified an Impact ventilator that was 
currently being used by the military to transport critically 
ill and injured war fighters back and forth from Iraq and 
Afghanistan. We developed the device to answer the needs for 
space and improve its capabilities so that it could work in a 
bi-directional matter. While the modified ventilator was never 
used in space, its development helped identify a method whereby 
NASA and industry could work cooperatively to leverage 
commercial technology for space.
    Working together, we have developed a number of prototypes 
for advanced life-support devices that replace a suite of 
therapeutic and monitoring equipment. In addition, Impact has 
completed development of a new ventilator that is deployed with 
our forces that has also been tested by NASA with the 
anticipation that it would replace existing equipment on space 
station when it is retired.
    That said, our biggest leverage has really been the 
cultivation of a new generation of young engineers and 
researchers that are working at NASA, at Impact or in academic 
centers or have left to start their own small businesses. The 
Space Act Agreement created a government, industry and academic 
partnership that has allowed our group to work on a series of 
medical challenges, sharing in the institutional knowledge and 
experience of the organizations while developing solutions that 
currently now benefit war fighters, astronauts and civilians, 
so I look forward to answering any questions that you might 
have.
    [The prepared statement of Mr. Beck follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Thank you, Mr. Beck.
    I now recognize our next witness, Mr. Brian Russell, for 
five minutes to present his testimony.

                STATEMENT OF MR. BRIAN RUSSELL,

           CHIEF EXECUTIVE OFFICER, ZEPHYR TECHNOLOGY

    Mr. Russell. Chairman and Members of the Committee, it is 
an honor to appear today before you to represent our friends 
and partners at NASA. Zephyr is a global leader in the art and 
science of remote physiological monitoring, or PSM. That is how 
we became partners with NASA.
    The story of that partnership illustrates the profound 
benefits of NASA funding. That funding spurs and accelerates 
research, technology and innovation that in partnership we are 
helping to save lives and make people fitter and healthier.
    Zephyr first became involved with NASA in 2008 where 
William Toscano and Patricia Cowlings' work at the Ames 
Research Facility, they studied people with motion sickness due 
to zero gravity, fighter pilots and fatigue in airline pilots. 
They used our BioHarness, which is our comfortable 
physiological monitoring sensor, to measure people's vital 
signs including fatigue, EKG and other parameters. We are also 
working with NASA on PHASER, which is a DHS program to save 
first responders lives.
    Through these studies, Zephyr not only serves the interests 
of NASA, DHS and DOD, they in turn served our needs. We receive 
critical feedback based on decades on their experience that 
helped us incorporate their experience into our design 
decisions. Those products are now making major contributions in 
several very important areas: sports and fitness, Special 
Forces and first responders for both training and operations, 
and perhaps most importantly today, mobile health.
    Through TSWG we have partnered with Special Forces in the 
Army and the Navy to create a system to not only train but to 
monitor a person's safety and health during field missions. 
Field commanders and medics can make more informed time-
critical decisions based on if someone is stationery, moving, 
dehydrated, had heat stressed or is actually suffering trauma 
from an injury. So we proving mission readiness, safety and 
training and extending their abilities in dynamic asymmetric 
warfare.
    Zephyr's PSM solutions are currently being used in the 
Olympics next month, Major League Baseball, NBA, collegiate 
sports, and even on Formula One racecar drivers. A coach can 
measure and train an athlete to peak performance while 
preserving his health and keeping--sorry--enhancing the 
athlete's health.
    A terrific dual use of our technology is to help 
professionals, hospitals, nursing homes, families and even 
individuals. Zephyr's web and smartphone system called 
ZephyrLIFE allows nurses to monitor real-time parameters in a 
hospital and doctors remotely can measure them anywhere in the 
world.
    This technology is selling now. The availability in large 
part is due to the researchers at NASA. Working with NASA gave 
us the information and feedback we needed to move from the 
realm of science fiction into the mainstream, and Zephyr is 
giving back. NASA was deeply involved with the rescue of the 33 
Chilean miners that were trapped 2,000 feet below the ground 
last year. Because of our experience with NASA, Zephyr was 
called on for help. We provided BioHarnesses, monitoring 
software and field support. Doctors were able to monitor the 
miners' wellness for the weeks underground to keep them fit and 
healthy for their rescue while monitoring them during the 
extraction and give them needed immediate medical support once 
they reached the surface. And now Zephyr is sharing all of that 
data collected during those dramatic weeks with NASA. It is the 
only event in recorded human history that mimics the conditions 
of long-endurance space travel where the nearest doctor may be 
a very, very long way away.
    This brings me to my concluding point. The scientists and 
legal department at NASA understood us. They gave us a simple 
process and brought us in as partners. As a result, Zephyr has 
improved and advanced its products, which are truly dual use--
helping doctors, patients, athletes, soldiers, firemen and all 
of us and our families who want to stay fit and healthy 
including NASA and its astronauts. The success has let us grow 
and employ more people. Some of those advancements from working 
with NASA we could have predicted but some we couldn't have 
imagined when we started.
    So please allow me to finish where I started. Because of 
this, the really basic truth of the testimony is the funding 
that NASA has and the way it has helped us has truly made a 
difference. Thank you.
    Do we have a video to show now or at the end? Okay. So the 
video I would like to show now is the latest release of a 
sports product that is--this is a sports application. We have 
just delivered this to Fort Bragg.
    [Video playback]
    [The prepared statement of Mr. Russell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Thank you, Mr. Russell.
    I now recognize our next witness, Mr. John Vilja, for five 
minutes to present his testimony.

                  STATEMENT OF MR. JOHN VILJA,

  VICE PRESIDENT FOR STRATEGY, INNOVATION AND GROWTH, PRATT & 
                       WHITNEY ROCKETDYNE

    Mr. Vilja. Chairman Palazzo and distinguished Committee 
Members, thanks for taking the time to have some talks on this 
very important subject to our Nation.
    There has been a lot of debate on what the value of NASA is 
to outside of the space world, and of course, everyone mentions 
the Teflons, Tangs, memory foam mattresses, but rocket engines 
are a little more obscure--and you might be wondering exactly 
what does that have to do with anything else but going into 
space. Well, to do that, you really have to understand what is 
so special about these machines, and they are what we call 
high-energy-density machines, or simply put, they create a lot 
of energy in a relatively small space, and it creates new 
engineering and multidisciplinary skills which are very hard to 
duplicate anywhere else but they have applications across the 
board. Pratt & Whitney Rocketdyne has been launching 
satellites, astronauts since the beginning of the space program 
and we are currently launching most of the DOD satellites today 
and we have a long heritage in harnessing this really specialty 
engineering.
    A good example of what one of these machines, this is the 
space shuttle main engine, the RS-25. This is a machine that it 
takes liquid hydrogen, which is the second coldest liquid in 
existence, combines it with oxygen, and it produces at about 
6,000 degrees Fahrenheit and throws it out at about mach 3, all 
in the space of about a moderate commercial jet engine yet it 
produces a thrust of 10 747 jumbo-jet engines. And just pumping 
the hydrogen has to produce 70,000 horsepower, and the hydrogen 
is then used to cool the chamber and the nozzle which is 
directing that steam which is operating well past the boiling 
point of steel. It would evaporate in seconds if we didn't do 
this.
    So the amount of different technologies that goes into 
doing this is staggering. It has to control itself 50 times 
every second just so it keeps at the right thrust level and 
uses the propellants in the right combination as it ascends 
into orbit.
    In developing the space shuttle main engine, what really 
drove advances in material science, combustion modeling, high-
speed turbo machinery, thermal management, structural 
assessment, safety engineering, advanced manufacturer and rapid 
health management. By investing in pushing the state-of-the-
art, it really created a source of intellectual capital that is 
unparalleled anywhere in the world. As the engine development 
continued, so did the learning. We were able to try new 
processes. We were able to test them out on real machines, and 
we learned a lot while we were doing it.
    These multidisciplinary advances gained from this 
investment enabled us to develop the first commercially 
developed large rocket engine, the RS-68, which today powers 
the Delta IV launch vehicle. Just recently, the Delta IV 
launched a national-security payload on June 29th. It is the 
largest hydrogen engine and we did it commercially because 
there was going to be a large demand in how many launches we 
needed. Well, that demand never materialized. In fact, the 
launch market has been flat for the last several decades, and 
with new international entrants coming into the market, it has 
become a very difficult place. So a company like us who is a 
commercial company really requires something to expand our 
business so spin-offs are the only place we can go 
realistically.
    Now, we have a long history of doing this. In the past we 
have commercialized a water-pumping technology, which is based 
on how we pump propellants in a rocket engine. We have spun 
that off. Jet skis are a result of that. And so there is that 
kind of thing. We have also done selective laser centering, 
making plastic parts, 3D parts printing. We helped pioneer that 
in the mid-1990s in order to make complex rocket engine parts, 
but since then we have spun off the business to service the 
rest of industry and so that technology is a direct outgrowth. 
There is other examples such as chemical lasers, hydrogen 
recombiners and flue gas cleaning devices, and those are all 
basically byproducts of this multidisciplinary skill.
    Today we are taking this expertise and focusing it largely 
on energy. The energy market is huge and growing. The world has 
a constant need for energy and we need to get it cheaper and 
cleaner, and so by applying rocket-engine technology, we find 
that there are many opportunities in this area.
    One of the key areas is in solar electric power plants. We 
are building a solar electric power plant outside of the desert 
in Nevada that stores electricity and then can dispatch the 
solar electricity at night so we can produce electricity 
throughout the evening. That is a world's first. The ability to 
capture the heat of a thousand suns in a collector is directly 
derived from our cooling technology experience. We are also 
working on a gasification device. It is a compact, high-
pressure, high-temperature gasification device that can take 
coal, petcoke and biomass and convert it into syngas. This 
syngas is used in chemicals. It can be used to make fuel. It 
can be used to make various other products. Our gassifier 
operates at higher pressures and temperatures so we get a 90 
percent reduction in pressures and temperatures, 20 percent 
reduction in plant capital cost, and a 15 to 20 percent 
reduction in end product cost, all this while giving a 30 
percent reduction in water usage and a ten percent reduction in 
CO<INF>2</INF> emissions.
    Other technologies that are going along, we are working on 
a hydrogen generator, a down-hole steam generator so we can go 
after heavy oil production from deep and cold locations, 
acoustic generators to improve hydraulic fracturing, and a 
number of other areas including very efficient power plants 
which can increase the efficiency of electricity generation by 
30 percent. We are partnering with many folks including the DOE 
and major oil companies in doing this.
    It is real important that we have an energy policy or a 
NASA science policy that continues to make the technology that 
allows us to go forward and create spin-offs, and that means we 
have to keep investing in development as well as production as 
well as coming to new technologies. Having production allows 
you to measure the quantified measurement of the technologies 
and what they can mean for you. The development allows you to 
take these very difficult things and bring them to a point 
where spin-offs are even possible.
    And finally, the advanced technology has to be there so you 
can really push the bounds. There is no commercial case for 
investigating these commercial bounds because the payback is so 
uncertain. So the NASA technology is really that seed corn that 
allows you later to go on and do that, and that is really where 
the NASA policy has to be strong and they have to really focus. 
So we would like to ask that NASA continue to have this whole 
portfolio of things.
    Thank you very much, and I would be happy to answer 
questions.
    [The prepared statement of Mr. Vilja follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Thank you, Mr. Vilja.
    I now recognize our final witness, Dr. Richard Aubrecht, 
for five minutes to present his testimony.

               STATEMENT OF DR. RICHARD AUBRECHT,

                   VICE PRESIDENT, MOOG INC.

    Dr. Aubrecht. Thank you very much for this invitation to 
testify this morning.
    Background on Moog. We are a company that started in 
western New York about 50 years ago. It was actually a spin-off 
of Cornell University at the time. And our core technology we 
describe as precision motion control. We control flight 
controls on all sorts of commercial and military aircraft. The 
same sort of technology is applied on wind turbines, all sorts 
of power generating. We have been a partner with my pal here 
from Rocketdyne for about 40 years. We do the steering.
    So we started working on NASA programs in the Mercury 
program in the 1950s and continued evolving our technology as 
NASA's needs evolved, eventually developing very complicated--
they are four-channel redundant flight controls that were 
applied on the space shuttle. These are for not only steering 
the rocket engines as it is launched but also the flight 
control surfaces as the shuttle was landing. That formed a core 
technology for us in doing our redundant flight controls.
    So what is different about that? If you look at the NASA 
missions, some missions at NASA I would call are hard missions. 
Putting something into space to begin with was a hard mission. 
What is really hard is doing a manned space program. So why is 
that? To begin with, you have obviously people involved with 
all that. What that means is, is that the probability of 
failure has to be orders of magnitude less than you are willing 
to stand for when you are just trying to launch a satellite. So 
that is a really, really hard problem. And the other aspect of 
that is, it becomes very public. There is lots of press 
coverage on that. Other satellites are launched and you read in 
the paper two days later a $100 million satellite failed to 
reach orbit. People said oh, so what. If you have that happen 
with a manned space program, it is all over the front page that 
evening. So it is a really hard problem, and I think that NASA 
should focus its efforts in the future on really hard problems, 
and I will show you why.
    Having developed that sort of technology to begin with 
entails not only developing the hardware but you also have to 
develop a whole series of other processes and technologies to 
support doing that. The systems design analysis and integration 
capability, the design tools, new materials have to be 
qualified and learn how to fabricate them. All kinds of new 
fabricating and measuring techniques have to be developed and 
finally you end up with a design. The key part about that is 
that there is a design team that works on all of that so it is 
not just a single person or just a couple of people that are 
doing this creative sort of work. There is a whole team that 
enables doing all of that, and that is what I think is really 
important for NASA to realize, is that the technology that you 
are developing is not just in the drawings and the reports and 
the hardware that is built.
     What is really important is, you are building a capability 
of a team of people who understand how to take on a really, 
really hard problem and as a result of doing that, they develop 
the confidence to be able to take on other really hard 
problems. So you build this culture of innovation in a company 
that is able to do really hard things, and that is what we have 
done with this. So today we have all the flight controls on the 
F-35 aircraft. We have all the flight controls on the new 787 
at Boeing. We also won the contract at Airbus on the A-350. 
This is the first time Airbus has ever gone outside Europe for 
that scale of a subsystem within the aircraft.
    So East Aurora, New York, has become the global center for 
redundant flight controls but then we have also taken the same 
sort of technologies and applied it to all sorts of other 
applications for other kinds of launch vehicles, military 
aircraft, commercial aircraft, business jets, and we also take 
it and apply it in industrial markets--wind turbines, undersea 
applications of all kinds. So it is that core technology that 
we developed starting with NASA in the 1950s that has enabled 
us to move into all these other fields.
    So a couple of key messages with this. It seems to me that 
NASA is really at a key turning point here. What has happened 
over the last 40 years is that the technology for launching 
things into space has become ubiquitous. You see people like 
Iran and North Korea are able to launch satellites. That is not 
hard anymore. There is a lot of people able to do that. What is 
really hard still is manned space, and that will continue to be 
a very hard problem, and that is where NASA ought to focus its 
efforts. Deep-space programs the same way. The technology to do 
the deep-space probes and also do the Mars Rovers and that kind 
of thing, it is again a really hard problem, and those are the 
sorts of things that NASA can really provide the funding to 
advance the technologies to enable us to repeat what we did 
starting with the NASA projects in the 1950s.
    We are working on a couple of new projects right now that I 
think are indicative of that sort of thing that NASA could 
really help with. We are developing what are called green 
propellants. Hydrazine that is used for a lot of applications 
in space is a really nasty fluid, and we have been working 
actually with Swedish space in developing green technologies 
that you can actually take it, it is like alcohol. You can 
spill it on your hands and it won't hurt you at all. And the 
other is things like small satellites. Professor Peck can speak 
on that a lot more than I can. But that is going to enable a 
lot broader usage of space than previously and NASA is in a 
position to be able to advance the technologies for doing small 
satellites that commercial people are just never going to do, 
and to me, that is the kind of leadership position that NASA 
ought to be taking and sponsoring these projects and the 
technologies that can become applicable across a wide range of 
applications.
    I don't think Moog is unique in that. You know, you have 
heard of some of the other people here. We see the people on 
either side of the systems we have on the NASA programs and 
have seen what some of our other people have done. But the 
other thing we have seen, we are pursuing the new launch 
vehicles on Constellation and Orion and the derivatives of 
those programs. We won about three times what we thought we 
were going to win five years ago on that. So why is that? It is 
because a lot of the people who used to build that hardware 
have dropped out and are no longer competing. The reason is, 
they lost their technology teams. They just simply didn't have 
the capability internally. It wasn't the will. They just didn't 
have the assets internally to be able to do the work.
    So one of the things that NASA really needs to think about, 
and I think it is a real challenge for this Committee to think 
about, is to set program goals, very specific goals, very 
specific timetables, very challenging technology targets, and 
then stay with them and fund them consistently. If you don't 
fund them consistently, the design teams don't stay together 
and you lose the fundamental capability. If there is one 
message you can take from me today, that is the thing you guys 
ought to really focus on.
    So thank you very much.
    [The prepared statement of Mr. Aubrecht follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Palazzo. Dr. Aubrecht, thank you, and I thank the 
panel for their testimony. At this time I am going to yield as 
much time as needed to a very special guest who has joined us. 
He is a Member of the Science, Space and Technology. It is Mr. 
Ralph Hall of Texas, the Chairman of the full Committee on 
Science, Space, and Technology.
    Chairman Hall. I thank you very much, and I thank you for 
calling this meeting, and I thank you gentlemen. Is there a 
lady there? I don't have good eyes. It is probably the one that 
wrote most of your work for the information you gave us, and I 
will read and study that on my airplane going back to Texas 
today.
    I won't have any questions, but I will just say that NASA 
has developed a lot of innovative technologies that weren't 
supplied and what NASA needs to do, as the last gentleman made 
some suggestions, I think they need to think about how to use 
the funds that they are getting. I think NASA has made some 
pretty desperate decisions in the last three years. Maybe they 
felt constrained to, but they have thrown money right and left, 
and when the President ran a line through Constellation, he put 
us on a road to lose our space station. I know that is not what 
this is about. This is about new breakthroughs, and we need it, 
but we need to know how to supply those, and Republicans and 
Democrats, we are very close together on what we have learned 
and were doing up to the time Constellation was cast aside. I 
am not going to comment on that. I think you can tell how I 
feel about it.
    We have advanced aircraft and spacecraft design and 
technologies that apply to our national security even and 
certainly to public safety, and if you want to see how we are 
really treated by the appropriators, just look at figure 4 of 
R&D in fiscal year 2013 budget request. It goes all the way 
down to where it looks like we have to pitch some money into 
the budget. I don't understand the bottom part of that out 
there. But we are not even keeping pace with inflation. We are 
in a desperate situation. The last three Presidents did not 
help us any at all. We have got to pray for this President. I 
pray for him myself but I looked up the other day and God was 
rolling his eyes at me, so I don't know if that is anything 
that is really going to have any effect or not.
    But I thank you, Mr. Chairman, for your time. I yield back.
    Chairman Palazzo. Thank you, Mr. Chairman.
    I now recognize myself for five minutes for questions. Dr. 
Peck, in your testimony you mentioned the magazine that you all 
put out, the spin-off that lists all the success stories 
through technology transfer and partnerships with small 
businesses, and I just--on page--and you all don't have to go 
to this, but on page 84, there is one such small business that 
actually is in my district in south Mississippi that has 
partnered with Stennis Space Center. It is called Envision. It 
is a minority woman-owned business. And the product--and I am 
not going to go into the details of the product but it is 
something in our region of the world, emergency response, that 
is just second nature and they developed a product that has 
been used in Hurricane Katrina, Ike, Gustav, and it has also 
been used by the Mississippi National Guard and the EPA most 
recently in helping to track the oil spill from 2010 in the 
Gulf of Mexico.
    My first question is going to be for Dr. Peck. To what 
extent did the individual centers develop partnerships with the 
private sector? What role did the centers play in disseminating 
technologies available for commercialization and how is that 
coordinated by NASA headquarters?
    Dr. Peck. Well, Congressman, the centers, the field centers 
of NASA, they really are where the tech transfer happens. 
Headquarters function is one of leadership and coordination and 
setting guidance for the field centers in their implementation 
of the tech transfer policies of the Agency. The individual 
field centers work closely with local businesses but then also 
companies around the country to develop these partnerships. 
There is a number of mechanisms that we use, but I will say 
that that is the function that resides at the centers and that 
is why we have those centers because their local expertise is 
where the strength of NASA's tech transfer program comes from.
    Chairman Palazzo. What is the appropriate balance between 
Space Technology Program personnel at NASA headquarters and the 
centers when it comes to effective technology transfer?
    Dr. Peck. It is a great question because really the core of 
the Space Technology Program extends beyond tech transfer, but 
it is no accident that the Space Technology Program is where 
the tech transfer function for the Agency really is led. The 
Space Technology Program, as you know, has a broad mission at 
the Agency of investing in cross-cutting, pioneering 
technologies that will ensure NASA's future but then also 
provide the kind of innovation you have heard discussed here at 
the panel today.
    When the Space Technology Program executes on its work, it 
combines directed work, which happens at the centers, with 
competed work where we look for the best ideas wherever they 
can be found. So there is close to 1,000 projects right now 
underway thanks to the Space Technology Program. Many of them 
go through the SBIR/STTR Program, which again you understand is 
the Small Business Innovation Research and Tech Transfer 
Research Programs, but a bulk of them also are run through 
academic institutions in the form of student fellowships and 
soon faculty support, as well as the more traditional contracts 
that we associate with new technology projects at NASA through 
a number of different programs.
    The balance of the personnel extends across NASA. There is 
two issues. There is the issue of what happens within our 
Innovative Partnerships Office (IPO) where the tech transfer 
function resides, and there we try to operate a leading 
function, but there are in fact IPO offices at each center with 
the responsibility of executing on the tech transfer mission.
    In addition to that, though, each center does have a Center 
Chief Technologist and some staff that are meant to advocate 
for the center's technology, as well as represent headquarters' 
guidance throughout their center. So again it is a blend where 
working together the technology development activity and the 
tech transfer activity have representation at the centers in 
terms of staff.
    Chairman Palazzo. All right. Another question for Dr. Peck. 
In your testimony you mentioned the President's charge to 
accelerate federal technology transfer activities and indicate 
where NASA has included such goals in its strategic planning. 
However, the funding requested for research and development at 
NASA is barely keeping pace with inflation even as other 
agencies are reaping the benefits of increased investments. How 
do you reconcile the increased focus on such activities at the 
federal level without commensurate funds requested for NASA 
specifically to meet this challenge?
    Dr. Peck. Well, I believe that NASA historically has been 
very successful in its tech transfer efforts. We have a proud 
history of that. In fact, of the 4,700 invention disclosures 
provided by the Federal Government a couple of years ago in 
2010, 1,700 came from NASA, so close to a third of the total 
for across the Federal Government. Our past success, though, we 
shouldn't rest on those laurels as you suggest; we should take 
advantage of the IG report and your guidance to really focus 
our efforts on tech transfer.
    There is a number of things we are doing to respond to the 
Inspector General's report on this. For example, we are 
rewriting the technology transfer policies to better match 
current best practices, as well as address commercialization 
planning. That new policy will provide a streamlined, broad, 
flexible approach, and that increased coordination will help 
NASA in best understanding the value of those innovative 
technological assets.
    Policy is part of it, also better training for our 
personnel. Actually being able to focus our efforts on tech 
transfer requires that the folks at NASA who do the work in 
developing new technologies also understand that a 
commercialization plan is necessary and required. They also 
need to understand how to submit those so-called New Technology 
Reports, the NTRs, that actually form the basis of our database 
of technologies.
    Fortunately, now, we have a new website, it is 
technology.NASA.gov. It is an opportunity for us to reach out 
very efficiently to the technology community and the community 
of small businesses and large businesses who want to partner 
with NASA. There you can find access to all of NASA's past 
technologies, as well as so-called online partnering tool, 
which allows for a very rapid turnaround connecting inventors 
at NASA with opportunities to commercialize them in the private 
sector.
    Chairman Palazzo. Thank you, Dr. Peck. Although I have some 
questions for the other members of the panel, I am going to be 
courteous to my other Members who are here who also have 
questions. And with the pending votes being called, I will now 
recognize Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Dr. Peck, we have talked about some examples about 
technologies that have been discovered by NASA and have been 
commercialized today. I think Members of this Subcommittee and 
Members of Congress probably know some of the benefits of the 
work that NASA has done, but there is a tremendous challenge, I 
believe, in educating the public as to the benefits. Tell us 
what NASA is doing to improve the public's understanding of the 
derived technologies and the benefits to the American people 
and to the world.
    Dr. Peck. Well, Congressman Costello, that charge is one of 
OCT's, the Office of the Chief Technologist. We have a number 
of approaches we take. There is, of course, the spinoff 
publication we have talked about already but also a website, 
again, spinoff.NASA.gov, where folks can see the full history 
of spinoffs from NASA technology. But it is more than that. 
Rather than sort of passively waiting for folks to come to our 
website, we actively engage them through social media. NASA 
Twitter site has hundreds of thousands of views and that 
provides us a way to actively engage the public communicating 
NASA's benefits to them. In addition to that, there is a 
Facebook presence and blogs, a number of ways that we actively 
engage through social media, the public on these kinds of 
issues.
    But more than that, you know, when we talk about NASA, we 
are careful to explain the relevance of what NASA does. So when 
I am talking about new technology, although I like to delve 
into the details a lot, I do my best to remind folks that the 
technology influences everyone's lives. Again, it is no 
accident that the space program undertakes difficult challenges 
and those difficult challenges are the ones that create the 
innovations and the new ideas that drive the Nation's economy. 
As Dick Aubrecht explained, those are the kinds of ideas that 
make America unique. In pursuing a space program, we undertake 
these hard problems that motivate our future and provide 
success for our businesses.
    Mr. Costello. Can you talk a little bit about what you are 
doing at universities and with teachers? The general public in 
my opinion, they understand a little bit about the space 
program. When I am home in my district and when I am traveling, 
I hear a lot from constituents about we need additional funding 
for new roads, bridges, highways, for the obvious things that 
they use in their lives, but I rarely have anyone say to me 
that you need to put more money into NASA in order to do 
research and development because they have done all these 
wonderful things for society. So what are you doing at the 
common level I would say to educate people at a young age about 
the benefits that have been derived from NASA?
    Dr. Peck. Well, NASA's Office of Education has an 
extraordinarily success history of outreach to K-12. Within the 
Space Technology Program, we also have a number of educational 
activities. They are focused on space technology. One is the 
Space Technology Research Fellows Program, which provides 
support for college students studying space technology. It is 
the first time that NASA has provided this kind of support for 
students. On top of that, we now also have a Space Technology 
Research Grants Program that sponsors faculty--similar to the 
NSF Career Award if you are familiar with that program--that 
now again introduces the opportunity, which I did not have when 
I was starting off at Cornell University, to be able to engage 
with NASA in research in space technology.
    The kind of trickle-down effect that we see by sponsoring 
students and faculty changes the conversation. It makes NASA 
very present in the lives of our students and it motivates 
students to pursue STEM activities--that is science, 
technology, engineering, and math--because the space program 
quite simply, is exciting.
    It is also true of aeronautics. We undertake a lot of 
fantastic work here that motivates people of all age but 
particularly students. So I am proud to say that NASA is the 
reason why a number of students go into STEM and we can keep 
that going.
    Mr. Costello. Thank you. I will have further questions 
later, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Brooks from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Dr. Peck, can you please explain how technologies developed 
for NASA make their way into other seemingly nonrelated 
products? And for example, how was the ultrasound device you 
cite in your testimony a result of NASA research? And was that 
technology specifically targeted or did it evolve from other 
research? And do you have any other similar examples you can 
share with us?
    Dr. Peck. Well, Congressman Brooks, the real key to how 
that happens is our active engagement in technology transfer. 
We have a technology transfer process and experts at the NASA 
centers who actively engage with businesses to ensure that NASA 
technology--which is taxpayer-funded, remember--goes to the 
private sector and benefits the American economy.
    In that particular example, there is a number of mechanisms 
whereby tech transfer can happen. It can happen simply because 
a company comes to NASA or we can use our communications 
techniques to actually seek out companies and find 
opportunities to transfer that technology. I will offer that 
the tech transfer pipeline at NASA is full but we can do better 
to bring new ideas into that pipeline. As the Inspector 
General's report suggested, we can be doing better to populate 
that pipeline. But that is just a beginning because, as you 
suggest, part of how we successfully transfer technologies, how 
we successfully commercialize involves taking from that next 
step. Merely inventing is not enough. We have also got to 
engage with the private sector to do so.
    Mr. Brooks. Well, a follow-up question, how does NASA 
engage with the entrepreneurial community to ensure potential 
technologies are recognized and taken advantage of? Are there 
means of regular discourse with our Nation's technology areas 
such as Silicon Valley or Research Triangle Park in North 
Carolina, or Cummings Research Park in my hometown of 
Huntsville, Alabama, if I could boast for a moment, which is 
the second-largest research park in the United States of 
America and the fourth-largest research park in the world?
    Dr. Peck. You are absolutely right, sir. NASA actively 
markets its technology to the technical community at large as 
not just the area strictly outside of the field center gates. 
The technology transfer program has an active technology and 
marketing and outreach campaign. I have described some of the 
elements of that already. There is also NASA Tech Briefs. This 
is a free monthly publication, features over 600 NASA 
technologies per year. It is also the largest circulation 
engineering periodical in the country. It reaches over 200,000 
people per month.
    NASA brings its technologies to industry-specific 
conferences, another method that we use. It brings new sensor 
technologies to optics conferences, our new composites to 
manufacturing conferences. The Agency has also recently started 
hosting industry-specific events like a recent automotive 
conference in Cleveland to which all the U.S. automakers were 
invited. And that is to showcase technologies and to test 
facilities that may be of use to that industry. And we have 
also got a pilot program in Colorado to determine if regional 
industrial clusters can benefit from an infusion of NASA 
technologies.
    Some of this work you can read more about at the NASA.gov/
OCTeconomicimpacts website, and there is a searchable map where 
you can see how the investment in SBIR program particularly, 
maps to local businesses and what do there.
    Mr. Brooks. This question is with respect to the other four 
witnesses, and whoever wants to grab it first can do so.
    How might an entrepreneur view NASA's technologies 
differently from NASA program managers and innovators? More 
specifically, is this being taken into account when devising 
better practices for dissemination of information?
    Mr. Beck. I can actually echo some of Dr. Peck's work to 
give a real example of that. The ultrasound work that was done 
at the Johnson Space Center I was actually a part of. And one 
of the things in how these things leverage is the realization 
and how NASA demonstrates its relevancy to the U.S. populous is 
NASA has a mission, and because of that mission, it creates a 
need. We had a need to support our astronaut operators and be 
able to diagnose illnesses that could occur on orbit.
    As a result of that, given the limitations of orbit, a 
technology was identified using ultrasound to be able to 
diagnose several of the problems that could occur on orbit. 
Space is unique but it is also a construction zone. Well, that 
becomes very relevant because these techniques that were 
developed in the ultrasound project found their way into being 
used in ERs on a regular basis in a way that you can be 
diagnosed in a bed as opposed to having to go off the CAT scan 
so they can immediately decide whether or not you need surgery. 
And I have personal knowledge of how the techniques that were 
developed out of the papers that were published from that 
program actually led to use directly by our military so that as 
our special operators, medics fly to save a down pilot or an 
operator that is remotely deployed and injured, when we get 
them, we are able to actually diagnose them in time in flight 
so that we can intervene immediately with a therapeutic 
intervention. And in addition, we can also have the appropriate 
care ready for them when they return.
    So one of the things that NASA has to do in demonstrating 
this is make itself more relevant to the public. That is 
sometimes difficult. Unless you have a panel like this you 
don't hear about how something is what one would think as 
unique as ultrasound in space actually has real meaning. The 
work that was done there was published in a series of over 11 
peer-reviewed articles in the medical literature and has really 
changed the way we provide pre-hospital care. No one really 
knows about that and somehow that has to be changed and this 
Committee offers an opportunity to make that known.
    Mr. Brooks. In that vein, I would like to thank the 
Chairman for calling this particular hearing. I have been a 
long believer in NASA perhaps being the premier Federal 
Government agency that has created technological advances that 
in turn have made America exceptional. And so, Mr. Chairman, 
thank you for calling this hearing. I also thank you, 
witnesses, for helping to share the insight you have been able 
to share today.
    Chairman Palazzo. I now recognize Mr. Clarke from Michigan.
    Mr. Clarke. Thank you, Mr. Chairman. I appreciate you 
recognizing me. I represent metropolitan Detroit and I am a 
Cornell grad, too, so I am really happy to be here today, 
although in a very non-STEM area, fine arts, painting.
    To respond to the question posed by my good friend, the 
gentleman from Alabama, about the development of the advanced 
ultrasound devices, that was also facilitated by a partnership 
with NASA and Henry Ford Health Systems, located in the heart 
of the city of Detroit. And this is what I wanted to underscore 
is that NASA recognizes the value that metro Detroit has to 
commercialize NASA technologies. I appreciate NASA sending out 
program managers, engineers, and technologists from three NASA 
centers last year. This is something I encouraged, a greater 
partnership between NASA and companies in metro Detroit. Also 
your work with GM in developing robotics technology has been 
very fruitful.
    Detroit has huge capabilities. We have the companies that 
know how to build and manufacture the best products and 
technologies that could be sold worldwide. We have got the 
best-trained people. We have got a lot of people who are out of 
work who are willing and eager to work. We also have three 
great research universities, all anchored in the center of 
Detroit by Wayne State University, along with the University of 
Michigan and Michigan State University.
    Metro Detroit, especially the city, also has the capacity 
for growth. We have a lot of cheap, vacant land so we could 
build, let's say, a NASA center for advanced manufacturing 
research and technology, which is something that I would like 
to ask NASA to consider down the line.
    My point is this: Detroit is ready and open to do business, 
to do business with NASA. How do you think we can create more 
metro Detroit jobs by leveraging NASA-derived technologies? 
That could be to Dr. Peck or to any of the panelists.
    Dr. Peck. Well, if I may, Congressman, I will start with an 
answer to your question. Let me just mention briefly the 
returns that we see on NASA's investment in technology and how 
that impacts the country, I mentioned the Spinoff publication a 
little while ago. Spinoff represents a fraction of all the 
spinoffs that ultimately result from NASA. The companies 
surveyed represented in Spinoff, we received about a 50 percent 
response rate, and from that subset of the subset of all the 
possible impacts that NASA has had, we found that over just the 
past decade those investments have created 14,000 jobs through 
NASA spinoffs, over five billion in revenue, and have saved 
over 400,000 lives. So the impact of working with NASA on 
technologies clearly is felt nationwide.
    I would offer that specifically for Detroit, there is a 
nearby NASA center; that is NASA Glenn Research Center. We have 
piloted an activity there where NASA provides mentorship to 
local businesses and helps solve technical problems with a 
small number of NASA expertise hours total, but still, it is a 
way for them to take what may be a tipping-point technology and 
turn it into a successful program. It is through the so-called 
MAGNET program in Cleveland. That is the kind of program that 
we hope to be able to extend across the Nation. It has been 
successful so far. I will offer that in the context of Detroit 
specifically companies that can work with your educational 
institutions and with NASA can form a three-legged stool of 
success if you like where the expertise from NASA and from 
education and from the manufacturing community can be a very 
powerful combination.
    Mr. Clarke. Thank you, Dr. Peck. What I would like to do is 
follow up with you and--to see how we can further advance that. 
You know, we can make that partnership happen. There are a lot 
of companies that are ready to do business with NASA. I would 
like to ask one more question.
    And how difficult is it for companies to partner with NASA? 
What barriers do they face in transitioning resulting 
technologies into commercial products? And what improvements if 
any would enhance NASA's ability to move more quickly the 
transition of their ideas into new products? How can we best 
make the commercialization process more effective and 
efficient?
    Mr. Vilja. I think one of the areas that we can really make 
strides on if we continue programs to their fruition. You know, 
one of the things that happens is that you spend a lot of money 
and effort, and then, before you actually have to put a stamp 
of completion on it, you stop and then you have to reform, make 
new teams, and you really never get out to industry with that.
    A good example was when the Constellation Program was 
canceled, the Space Launch System took over many of the systems 
that carried on from Constellation. The J-2X engine was one of 
the examples. On its first nozzle, we had a situation where we 
were coming up with a very complex process for making a very 
difficult manifold, and that manifold was made of sheet metal 
and it just wasn't coming together for us. And so we sat around 
going, well, how are we going to do this? And again in the 
problem-solving fashion that is derived by NASA to actually 
make something, we end up going, you know who is really good at 
stamping sheet metal? Detroit. And we actually went to a 
company in Detroit and they did a great job. They stamped it 
out in record time and it was a real neat situation. But if you 
don't continue the project to the point where you have to bend 
metal and join metal and actually complete it, you really don't 
get the full benefit of things.
    Mr. Clarke. Thank you. Yes?
    Chairman Palazzo. Mr. Clarke, would you like to allow Dr. 
Aubrecht to respond?
    Mr. Clarke. Yes.
    Chairman Palazzo. Okay.
    Mr. Clarke. Thank you, Mr. Chair.
    Dr. Aubrecht. Just coming back to the point that he was 
making in terms of completing projects, the thing that working 
on NASA programs allows you to do is to complete the program 
and demonstrate something, a capability in space. Once you do 
that, other people are willing to listen to you, but you have 
to complete the project and have something to show for it. And 
that is what--my mentioning in terms of green propellants, we 
have been struggling for five years now trying to get a program 
to fly green propellants here in the United States. We have 
been unsuccessful at doing that. Once we do that, we could sell 
green propellants around the world. It would revolutionize the 
way satellites are kept in orbit. But you need the initial 
flight, and NASA is in the position to be able to do that kind 
of thing. The other commercial guys are very cautious about 
that because of the risk associated with it. NASA can undertake 
the risk, demonstrate it. Once you have that, you can take it 
elsewhere, but you got to complete the project.
    Mr. Clarke. Thank you, Doctor.
    Chairman Palazzo. I now recognize Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing about the green propellant. 
Once it is tested and once it is put to use and proven, will it 
cost more or less than what current----
    Dr. Aubrecht. It would cost a lot less handling hydrazine 
is hugely expensive. It is not the cost of the fuel; it is the 
cost of all of the associated support systems that you have to 
have because it is so toxic. It is dramatically less expensive.
    Mr. Rohrabacher. So then, what we need to do--and I will 
wait to get the Chairman's attention--is what we need to do is 
make sure that we provide--Mr. Chairman, his statement about 
this ultimately being cheaper to go with the green propellant 
means that we need to be involved in this----
    Dr. Aubrecht. Um-hum.
    Mr. Rohrabacher. --and we need to push this and make sure 
that it doesn't sit on the shelf.
    Dr. Aubrecht. Yeah.
    Mr. Rohrabacher. And in the end it would be cost-effective 
for us. So thank you for that.
    I would like to ask about your technology--when you were 
mentioning something that actually creates power at night?
    Mr. Vilja. Yeah, what it is is it is a concentrated solar 
power plant that has a field of about 10,000 mirrors that 
focuses onto a solar receiver that is on top of a 550 foot 
tower. It gets the intensity of about 1,000 suns on this 
receiver. It is a pretty hostile environment but not so bad 
compared to a rocket nozzle, for instance.
    Mr. Rohrabacher. It doesn't sound like, however, that you 
would be getting much energy----
    Mr. Vilja. Well, we are making----
    Mr. Rohrabacher. --for investment of----
    Mr. Vilja. It is actually fairly cost-competitive and what 
it allows us to do is we run molten salt through the receiver 
and that molten salt is then put in storage tanks. And now you 
have a hot reservoir source that you can make steam with 
throughout the evening. So you can actually get solar power at 
night and it actually applies toward base load rather than 
peaking load. And that is a big deal because that is when you 
start talking about taking coal offline.
    Mr. Rohrabacher. Right. I think if any spinoffs that we 
have in the future we are going to find that there is a 
relationship between the energy and what we are developing in 
space, which leads me to Dr. Peck.
    Years ago I was very involved with trying to advocate the 
development of wireless projection of energy so that we might 
be able to utilize the satellite as a system of transferring 
energy from one place in the Earth to the other or collecting 
it in space and transferring it to Earth. Has there been much 
research on that or is that just a forgotten project?
    Dr. Peck. Congressman Rohrabacher, thanks for bringing that 
one up. It is an exciting idea and I am glad to report that 
there are several efforts underway currently at NASA in that 
particular technology. One is through the NASA Innovative 
Advanced Concepts Program, which is part of the Space 
Technology Program within my office. We have a so-called NIAC 
Phase I study, the Solar Power Satellite via Arbitrarily Large 
Phase Array--that is SPS-ALPHA. It focuses a modular approach 
that would one day make a huge orbital platform to be megawatts 
of wireless power. Now, NIAC is known for those very far-out 
ideas.
    In much more nearer term, we have the Centennial Challenges 
Program. You may remember this is our flagship prize 
competition activity. Prizes have often been recognized as a 
great innovative way to bring in nontraditional offerers and 
technologists to solve hard problems. We offered a prize for 
beamed power in 2005 to 2009 looking at how to beam power to a 
spacecraft that could rise through the atmosphere using that 
kind of power. In fact, one of the competitors--LaserMotive, 
LLC--was awarded $900,000 in the 2009 challenge because the 
practical demonstration of power beaming.
    And now, more recently, the game-changing development 
program, again one of the Space Technology Programs. In 2011, 
we awarded approximately $3 million for concept studies to 
multiple companies for a first-phase study called Ride the 
Light. There was work done by Teledyne Brown Engineering in 
Huntsville, Alabama; Aerojet in Redmond, Washington; ATK in New 
York; LaserMotive in Kent, Washington; and a number of others 
including JPL Boeing and the Aerospace Corporation. These 
studies show that the cost of a phase 2 ground-based 
demonstration wouldn't be feasible in the fiscal year 2012 
appropriated amount for space technology, but it does provide a 
path forward for looking into this research in the future.
    As you suggest, it is a far-out idea but it has got some 
promise and this is the sort of thing that we pursue through 
the Space Technology Program because where else are you going 
to do it? You know, it has got to be done at NASA.
    Mr. Rohrabacher. Most people don't know we lose a lot of 
electricity when it goes--when it is transmitted over wires, 
and come to think of it, is there that much loss when we 
transmit it by beaming it? And that is the type of studies that 
I would like to see because it might even be cost-effective to 
transfer it from space to earth rather than produce it in Earth 
and using wires to send it thousands of miles away.
    One last thought--and I know I just got a few seconds 
here--and that is we have heard about the sonogram and some of 
these other spinoff technologies. I am very interested--and we 
have heard a lot of questions today--about getting the new 
things onto the market, but if once they are on the market we 
have private companies that are making lots of money off the 
jobs that they are doing in the private sector. Is there a 
payback for NASA? Is there a--who owns the technology? And 
should we have a system set up so that if someone has a 
sonogram that becomes used all over the world and NASA's 
technology development was instrumental in developing that, who 
has got the patent and who is going to get the money and is 
NASA going to get anything back? Maybe Dr. Peck or whoever 
would like to comment on that.
    Dr. Peck. Yes, sir. I will give you a brief response and 
then maybe save some time for others. You know, briefly, a lot 
of the tech transfer activity that we have undertaken at the 
Agency is based on licensing. The licensing fees can come back 
to the government through that. Part of it goes to the inventor 
in fact, which motivates----
    Mr. Rohrabacher. Well, we should have that but is NASA 
getting anything back?
    Dr. Peck. Yes, sir.
    Mr. Rohrabacher. We are?
    Dr. Peck. And I will take for the record to provide some 
details on that.
    Mr. Rohrabacher. That would be very nice. That would be 
very good. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Palazzo. At this time, we are going to go into a 
second round of questions. We are going to ask our Members to 
only ask one question just in case votes are called.
    And the first opportunity is going to go to Mr. Russell. I 
think you raised your hand and the question was probably 
centered around what is the greatest barrier your company faced 
when working with NASA on technology transfer projects? What 
was similar to what Mr. Clarke was going to ask you? But we 
will give you an opportunity and we are going to count that as 
his question.
    Mr. Russell. Thank you. The point I wanted to make was 
there are some softer aspects of the value of NASA, which is 
critically important to small companies like mine. So the fact 
that NASA is using our product allows us to market that fact, 
which helps NASA and the general public get wider awareness. So 
that fact that, you know, NASA has used us because they have 
solved this problem in space for 30 years, that was before 
people could do remote physiological monitoring due to 
technology. So when we needed to field it onto special 
operators, we used NASA's 30-year experience to help us solve 
that problem for a DOD problem. Then they could take that 
technology and use it for the washout program on the Air Force 
and then DHS used that on first responders.
    So I think NASA needs recognition that they are using the 
advanced technology to help other government departments to 
solve the problem as well. And so then into the general public 
when our monitoring people at home across the country using 
that technology, it is very cheap and is now helping everybody 
in the general public not only be well but monitor their 
chronic disease issues. So I think the fact that NASA has gone 
into government departments who had the next need and then into 
the general public at the consumer level helps NASA. And every 
time we can tell people where the technology came from, I think 
that adds a true value back to NASA that is not just financial 
but helps justify why we are here today and helps the general 
public back the funding for that next, hopeful that this 
technology may help in the future.
    Whether it is blue sky or deep space general today, I think 
those are very good examples of how it does come down. And I 
think that that experience bringing to us and helps our 
scientists solve problems and excites them to build the 
competencies of the teams that have been talked about, as well 
as get that into Best Buy, I think that is a success that helps 
everybody.
    Chairman Palazzo. All right. Thank you, Mr. Russell.
    Dr. Aubrecht and Mr. Vilja, both of you mention in your 
written testimonies the need for NASA to maintain a clear 
vision for the future and to continue investing in the hard and 
challenging technological problems to ensure the United States 
remains cutting edge. Do either of you have recommendations on 
ways to improve NASA's strategic vision such as--that the 
United States is consistently pushing the technological 
envelope?
    Mr. Vilja. Well, I think it is a three-pronged approach. 
You know, first of all, you really do have to have some sort of 
sustained production so that you can really get that. By going 
to a continuous process and proven approach, you really get a 
draw for what is the technology that you can use.
    The second thing is you always have to have a development 
program going that actually ends up in product. And that is 
where you really introduce new concepts into practice. And 
after it has been introduced into practice you know it is 
practical; you know it is ready for further investment into the 
commercial spinoff.
    But then you also got to keep that third prong going where 
you are saying, look, what is impossible today? And then start 
exploring how you make the impossible possible. And that is 
where you really start getting the breakthroughs. Now, they are 
not always practical. You know, power beaming is a hard thing 
to do. But once you start making those initial breakthroughs, 
then you drive it into practice and then you start getting the 
commercial spinoff.
    So it is really--you have to have a pipeline going and you 
have to stick to that pipeline because if you keep changing it 
over, you don't ever really get the full benefit of it.
    Dr. Aubrecht. Yeah, just to extend on that, to me the thing 
that NASA has done well, where it has succeeded, is when it had 
a very clear statement in terms of what the objective was on 
one page. And you need to get NASA on the page, this Committee, 
the rest of the Congress needs to be on that page, and the 
White House needs to be on the same page. And it has to be 
clear. It doesn't have to be very complicated language. It 
doesn't have to be in scientific or engineering terms or 
whatever, just a very clear objective in terms of what you are 
trying to accomplish.
    The question earlier in terms of engaging the public and 
how to get the public understanding what NASA does. You have to 
write it in terms of what the local newspapers can write 
articles about that and say here is where NASA is going with 
something. So to me it is almost a marketing challenge that you 
have, but it starts with have a very clear, concise statement 
in terms of what the objective is. And you go back to the 
manned space program; that is what drove that all the way 
through the '60s and '70s, which is very clear, continuous, 
step-by-step here is where we want to go. And to me if you did 
that with all of the rest of the NASA sort of projects, you 
would have the same kind of result.
    Chairman Palazzo. Dr. Aubrecht, I think you will find 
complete agreement with this Committee on what you just said.
    And at this time, I will recognize Mr. Costello.
    Dr. Aubrecht. I notice the heads nodding.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Vilja, let me ask you. You mentioned at Pratt Whitney 
what you have learned and what your experience has been with 
rocket engines and how it was instrumental in your ability to 
design a rapid-mix injector. And you talked about the--in your 
gas fire system. Tell me a little bit, if you will, about how 
this technology, deploying this new technology in commercial 
systems, how it may have a result on emission reduction and 
greater use of coal gasification technology in energy 
generation?
    Mr. Vilja. Sure. I mean the thing that really drives 
anything into practice is an economic benefit right off the 
top. By being 90 percent smaller than the other alternatives 
that exist today, you get a real benefit in just building the 
plant in the first place, you know, on the order of like 30 
percent of building the plant, then a 15, 20 percent reduction 
in the amount of product that you get out of it for the product 
you put in.
    We are also finding that using this technology we are not 
as susceptible to the grade of coal coming in. We have been 
talking to a lot of users of existing plants. They have to 
specially blend their various coals, and as a rocket guy, had 
no idea there were that many different coals. But there are a 
lot of different coals and you have to make a special blend so 
the gasifiers don't have hiccups and they can still keep 
producing. Ours seems to be pretty insensitive to that so you 
can really start using more different grades of coal and still 
get the same outcome.
    Now, by getting the higher efficiency, you get a ten 
percent lower amount of carbon dioxide that is produced in it 
and it is coming out at a higher pressure, so if you wanted to 
do carbon sequestration, you have higher pressure to work with 
and it is much easier to do that.
    And then the final benefit is the fact that since we are a 
dry-feed system, we use 30 percent less water. And I think over 
the course of things, water preservation is going to be a very 
big thing in the environmental agenda, and so I think that I 
am--you know, a lot of people talk about the air pollution side 
but we think water conservation is another part of it that 
makes it economically very attractive.
    Mr. Costello. We obviously can't do this now but I will be 
in touch with you later. I am very interested in pursuing some 
other questions with you.
    Mr. Vilja. That would be great.
    Chairman Palazzo. Thank you. I now recognize Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chair.
    I have been working to attract new companies to metro 
Detroit. Many of them are startups and virtually all of them 
are headed up by very bright individuals that understand a 
partnership with NASA could be mutually beneficial, yet many of 
them don't understand how to work with government. What steps 
should a new startup take if they wanted to start a dialogue 
with NASA on a future likely partnership? And that is to 
anyone.
    Mr. Russell. As a very small company and a foreigner, we 
started actually when we were based in New Zealand before we 
shifted the company wholly to the United States, and so we 
engaged with the end researchers and subject matter experts in 
NASA that wanted to work with us in a mutually beneficial way. 
And that really helped us not have to learn the entire SBIR 
process nor the contracting to begin with. We actually had a 
value proposition that we could come to NASA and they could 
help us with the process. And I think there has been some 
amazing explanation of the processes that exist.
    So my recommendation would be figure out what you want to 
do first and what problem you want to solve rather than head 
smack into all the bureaucracy that is going to overwhelm you. 
Because once you have the passion inside NASA and your 
organization, they are enthusiastic; they will help solve the 
other problems for you.
    Mr. Clarke. Yes?
    Mr. Vilja. NASA has also got an active program where we can 
have mentor protege relationships with new companies, 
particularly in HUBZones or distressed areas, and we have 
contract flow-downs where a certain percentage of our entire 
contract value has to go to this kind of a spread. We have had 
a lot of success on the J-2 program. We had a mentor- protege 
relationship with several HUBZone companies where they actually 
learn how to do government contracting and we were able to 
bring them into the supplier base. Cain Tubular outside of 
Chicago had never worked on rocket components. They did a great 
job on some heat exchanger coils for us. The company in Detroit 
who was able to stamp out the panels, we think they are going 
to fall into our supplier base.
    But, the intricacies of government contracting is something 
they are going to have to learn. But these contracts give a 
great opportunity for them to learn that without having to be 
overcome by, you know, trying to bid on them individually. And 
by going along with these kinds of programs, I think that is a 
great way for them to become part of the NASA supplier base.
    Mr. Clarke. That is great. So I will reach out to you 
gentlemen, then, regarding some partnerships.
    Dr. Peck. May I add something to that?
    Mr. Clarke. Yes.
    Dr. Peck. Thank you. Just briefly, I mentioned the online 
partnering tool already. It is at technology.NASA.gov. That 
actually allows companies to engage directly with NASA and get 
handholding through the process. It is actually meant to 
simplify the kind of relationship that Mr. Russell explained 
can be overwhelming. But thanks to our new approach and using a 
web-based interface, we think we are simplifying that. We have 
even gone further to offer licensing available through the 
internet, so as a small company, if you know that you want to 
license a technology that has been developed for NASA, you can 
go to the website, click on it, and procure it right there and 
then.
    Mr. Clarke. That is great. So I know I had one question but 
you actually answered my other questions about licensing. Thank 
you.
    And I yield my time back.
    Chairman Palazzo. Thank you, Mr. Clarke.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. The Members of the Subcommittee 
may have additional questions for the witnesses and we will ask 
for you to respond to those in writing.
    The record will remain open for two weeks for additional 
comments and statements from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
